<html>
<title> - PROTECTING CHILDREN: THE USE OF MEDICATION IN OUR NATION'S SCHOOLS AND H.R. 1170, CHILD MEDICATION SAFETY ACT OF 2003 HEARING BEFORE THE SUBCOMMITTEE ON EDUCATION REFORM OF THE COMMITTEE ON EDUCATION AND THE WORKFORCE HOUSE OF REPRESENTATIVES ONE HUNDRED EIGHTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]






 
                           PROTECTING CHILDREN:
                  THE USE OF MEDICATION IN OUR NATION'S 
                 SCHOOLS AND H.R. 1170, CHILD MEDICATION 
                            SAFETY ACT OF 2003


                                  HEARING
    
                                 BEFORE THE

                     SUBCOMMITTEE ON EDUCATION REFORM

                                   OF THE

                        COMMITTEE ON EDUCATION AND
                               THE WORKFORCE

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS

                              FIRST SESSION
                               ____________
	
              HEARING HELD IN WASHINGTON, DC, MAY 6, 2003

                             Serial No. 108-14

           Printed for the use of the Committee on Education
                             and the Workforce



 87-723 pdf
   __________________________________________________________________________
   For sale by the Superintendent of Documents, U.S. Government Printing Office
   Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800
       FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON EDUCATION AND THE WORKFORCE
                        JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin					GEORGE MILLER, California
CASS BALLENGER, North Carolina				DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan					MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California			DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware				ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas					LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania				RUBE?N HINOJOSA, Texas
CHARLIE NORWOOD, Georgia				CAROLYN McCARTHY, New York
FRED UPTON, Michigan					JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan					RON KIND, Wisconsin
JIM DeMINT, South Carolina					DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia					DAVID WU, Oregon
JUDY BIGGERT, Illinois					RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania				SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio					BETTY McCOLLUM, Minnesota
RIC KELLER, Florida					DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska					ED CASE, Hawaii
JOE WILSON, South Carolina					RAU?L M. GRIJALVA, Arizona
TOM COLE, Oklahoma					DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada					CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota					TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas					TIMOTHY H. BISHOP, New York
	MARILYN N. MUSGRAVE, Colorado
	MARSHA BLACKBURN, Tennessee
	PHIL GINGREY, Georgia
	MAX BURNS, Georgia

           Paula Nowakowski, Chief of Staff
     John Lawrence, Minority Staff Director


                        SUBCOMMITTEE ON EDUCATION REFORM
                     MICHAEL N. CASTLE, Delaware, Chairman

TOM OSBORNE, Nebraska, Vice Chairman				LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania				SUSAN A. DAVIS, California
FRED UPTON, Michigan					DANNY K. DAVIS, Illinois
VERNON J. EHLERS, Michigan					ED CASE, Hawaii
JIM DeMINT, South Carolina					RAU?L GRIJALVA, Arizona
JUDY BIGGERT, Illinois					RON KIND, Wisconsin
TODD RUSSELL PLATTS, Pennsylvania				DENNIS J. KUCINICH, Ohio
RIC KELLER, Florida					CHRIS VAN HOLLEN, Maryland
JOE WILSON, South Carolina					DENISE L. MAJETTE, Georgia
MARILYN N. MUSGRAVE, Colorado				
							
							
							
							








                          TABLE OF CONTENTS

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENATIVES, WASHINGTON, D.C.	1

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENATIVES, WASHINGTON, D.C.	3

STATEMENT OF HON. KATHERINE BRYSON, STATE REPRESENTATIVE, UTAH 
HOUSE OF REPRESENTATIVES, OREM, UTAH.	5

STATEMENT OF WILLIAM CAREY, M.D., DIRECTOR OF BEHAVIORAL PEDIATRICS, 
CHILDREN'S HOSPITAL OF PHILADELPHIA, PHILADELPHIA, PENNSYLVANIA	6

STATEMENT OF LANCE CLAWSON, PRIVATE PSYCHIATRIST, CABIN JOHN, 
MARYLAND.	8

STATEMENT OF REPRESENATIVE MAX BURNS, COMMITTEE ON EDUCATION AND 
THE WORKFORCE, U.S. HOUSE OF REPRESENATIVES, WASHINGTON, D.C.	15

APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. 
CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION 
AND THE WORKFORCE, U.S. HOUSE OF REPRESENATIVES, WASHINGTON, D.C.	33

APPENDIX B - WRITTEN OPENING STATEMENT OF RANKING MEMBER LYNN C. 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENATIVES, 
WASHINGTON, D.C.	37

APPENDIX C - WRITTEN STATEMENT OF HON. KATHERINE BRYSON, STATE 
REPRESENTATIVE, UTAH HOUSE OF REPRESENTATIVES, OREM, UTAH.	41

APPENDIX D - WRITTEN STATEMENT OF DR. WILLIAM CAREY, M.D., DIRECTOR 
OF BEHAVIORAL PEDIATRICS, CHILDREN'S HOSPITAL OF PHILADELPHIA, 
PHILADELPHIA, PENNSYLVANIA.	53

APPENDIX E - WRITTEN STATEMENT OF DR.  LANCE CLAWSON, PRIVATE 
PSYCHIATRIST, CABIN JOHN, MARYLAND.	59

APPENDIX F  - WRITTEN STATEMENT OF REPRESENTATIVE MAX BURNS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C.	79


APPENDIX G - WRITTEN STATEMENT FROM AUDREY SPOLARICH, CHAIR, 
COALITION FOR CHILDREN'S HEALTH SUBMITTED FOR THE RECORD BY 
REPRESENTATIVE CHIS VANHOLLEN, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C.	83

APPENDIX H - WRITTEN STATEMENT BY DR. KAREN EFFREM SUBMITTED FOR 
THE RECORD BY REPRESENTATIVE MARILYN MUSGRAVE, SUBCOMMITTEE ON 
EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENATIVES, WASHINGTON, D.C.	115

APPENDIX I  - WRITTEN STATEMENTS FROM THE NATIONAL MENTAL HEALTH 
ASSOCIATION SUBMITTED FOR THE RECORD BY RANKING MEMBER LYNN C. 
WOOLSEY, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENATIVES, 
WASHINGTON, D.C.	129

APPENDIX J  - WRITTEN CORRESPONDENCE FROM UTAH CONSTITUENTS 
SUBMITTED FOR THE RECORD BY HON. KATHERINE BRYSON, STATE 
REPRESENTATIVE, UTAH HOUSE OF REPRESENTATIVES, OREM, UTAH.	137

Table of Indexes	144




















          PROTECTING CHILDREN: THE USE OF MEDICATION IN OUR NATION'S

           SCHOOLS AND H.R. 170, CHILD MEDICATION SAFETY ACT OF 2003
        ______________________________________________________________

                             TUESDAY, MAY 6, 2003

                          HOUSE OF REPRESENTATIVES,

                       SUBCOMMITTEE ON EDUCATION REFORM,

                   COMMITTEE ON EDUCATION AND THE WORKFORCE

                               WASHINGTON, D.C.







	The subcommittee met, pursuant to call, at 2:07 p.m., in Room 2175, Rayburn House Office 
Building, Hon. Mike Castle [chairman of the subcommittee] presiding.

	Present:  Representatives Castle, Wilson, Musgrave, Woolsey, Mrs. Davis of California, 
Case, Kucinich, Van Hollen, and Majette.

	Also Present: Representative Burns.

	Staff Present:  David Cleary, Professional Staff Member; Kevin Frank, Professional Staff 
Member; Melanie Looney, Professional Staff Member; Krisann Pearce, Deputy Director of 
Education and Human Resources Policy; Liz Wheel, Legislative Assistant; Deborah Samantar, 
Committee Clerk/Intern Coordinator; Joe Novotny, Minority Staff Assistant/Education; Lynda 
Theil, Minority Legislative Associate/Education; and Ann Owens, Minority Clerk

OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C.

Chairman Castle  XE "Chairman Castle"  .  A quorum being present, the Subcommittee on 
Education Reform and the Workforce will come to order.

	We are meeting today to hear testimony on "Protecting Children, the Use of Medication in 
Our Nation's Schools, and H.R. 1170, Child Medication Safety Act of 2003."

	Under committee rule 12(b), opening statements are limited to the chairman and the ranking 
minority member of the subcommittee.  Therefore, if other members have statements, they may be 
included in the hearing record.

	With that, I ask unanimous consent for the hearing record to remain open 14 days to allow 
members' statements and other extraneous material referenced during the hearing to be submitted in 
the official hearing record.  Without objection, so ordered.

	Let me say good afternoon to the witnesses, and let me begin by welcoming our guests, 
witnesses, and members of the committee.  Thank you all for being here today.  I appreciate the 
opportunity to discuss the Child Medication Safety Act and look forward to your comments and 
recommendations.  

On September 29, 2000, the Committee on Education and the Workforce held a hearing 
entitled "Behavioral Drugs in Schools: Questions and Concerns."  Witnesses testified about the use 
of psychotropic drugs by youth.  In September of 2002, the House Committee on Government 
Reform held a hearing to explore the use of psychotropic drugs in our Nation's schools.  They 
found that in many cases, parents are being required by school officials to place their child on a 
psychotropic medication such as Ritalin or Adderall to allow them to remain in the classroom.  
Psychotropic drugs, when prescribed and monitored by a licensed medical practitioner, can be 
helpful for individuals properly diagnosed with attention deficit disorder (ADD) or attention 
deficit-hyperactivity disorder (ADHD).

	These medications can help to control the symptoms of their disease so that these 
individuals can function.  However, these drugs have the potential for serious harm and abuse.  
They are listed on schedule 2 of the Controlled Substances Act.  Drugs are placed on schedule 2 
when the drug has a high potential for abuse or may lead to severe psychological or physical 
dependence.

	School is an important source of information for families, and we encourage an open line of 
communication between schools and families.  Parents, however, should never be forced to decide 
between getting their child into a school and keeping their child off of potentially harmful drugs.  
School personnel should never presume to know the medication needs of a child.  Only medical 
doctors have the ability to determine if a prescription for a psychotropic drug is physically 
appropriate for a child.

	To address the significant problem, my colleague on this committee, who will be here with 
us shortly, Representative Max Burns of Georgia introduced H.R. 1170, the Child Medication 
Safety Act of 2003.  The goal of this Act is straightforward.  It would require states to establish 
policies and procedures prohibiting school personnel from requiring a child to take medication in 
order to attend school.  This would prevent parents from being forced into making decisions about 
their child's health under duress from school officials.

	We look forward today to hearing from our witnesses about the benefits and dangers of 
psychotropic drugs and about the efforts by parents and state legislators to address the coercion 
issue.

WRITTEN OPENING STATEMENT OF CHAIRMAN MICHAEL N. CASTLE, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENATIVES, WASHINGTON, D.C. - APPENDIX A

Chairman Castle  XE "Chairman Castle"  .  With that, I yield to my colleague from 
California, Ms. Woolsey, for any, whatever opening statement she wishes to make.

OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C. 

Ms. Woolsey  XE "Ms. Woolsey"  .  Thank you, Mr. Chairman.  I said before when the subject 
of psychotropic drugs, particularly the subject of Ritalin, has come up before this committee, that I 
raised four children, and I am absolutely sure that their schools would have suggested Ritalin for 
them if they were in school today, and I am as just as certain that I would not have taken the bait, 
because I knew the difference then and I know the difference now, and this is what I think we need 
to be talking about today, is the difference between boys behaving badly versus a serious problem, 
versus behavior modification.  And that is what I hope we are going to be talking about.

	I have concerns, because I think that we are blurring the line between the behavior of an 
active high-spirited child and child with a disability, and this is not to suggest that attention deficit 
hyperactivity disorder, ADHD, is not a very real disability for many children.  ADHD robs so 
many children of their parents and their parents of the pleasures of child and the pleasures of 
family, and children are labeled as bad for actions they can't control.  The parents find themselves 
frustrated and often angry, and that is not a way to feel about your kids as you are raising them.

	Properly prescribed and coupled with other therapies, Ritalin and other psychotropic - it has 
enabled thousands of children with ADHD to achieve at school, to bond with their family and to 
feel better at home.  The success of Ritalin has been well documented, and it is an important 
resource that medical professions should be able to consider when planning treatment for a child 
with ADHD.

	However, the growing increase in the manufacture and prescription of these drugs is a cause 
for concern, as far as I am concerned.

	The decision to treat a child with any drug, but certainly a stimulant like Ritalin, must be 
made very carefully and only after comprehensive evaluations and diagnosis.  It is crucial that 
parents be well informed about the drug, both its possible successes and its possible side effects.  If 
it is being considered for their child.  And it goes without saying that parents should have the final 
word in deciding whether or not their child takes a drug like Ritalin.

	I look forward to your discussion and hearing from you, because you are a panel of experts, 
and we want to hear what you have to say about this.  Thank you very much.

WRITTEN OPENING STATEMENT OF RANKING MEMBER LYNN C. WOOLSEY, 
SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENATIVES, WASHINGTON, D.C. - APPENDIX B

Chairman Castle  XE "Chairman Castle"  .  Thank you, Ms. Woolsey.

	We have a very distinguished panel of witnesses before us, and I thank them for coming 
today.

	The first witness is the Honorable Katherine Bryson.  Ms. Bryson currently serves as the 
state representative for the 60th district of the Utah House of Representatives.  I come from 
Delaware, so we do not have 60 of anything in Delaware.  That number impresses me.  She is the 
chairwoman of the Business and Labor Committee and a member of both the Judiciary Committee 
and the Higher Education Appropriations Subcommittee.  Additionally, Ms. Bryson is the sponsor 
of H.B. 123, a bill to prohibit school personnel from making certain medical recommendations for 
a child, including the use of psychotropic drugs.  She is also the state vice chair for the American 
Legislative Exchange Counsel and a member of the National Federation of Women Legislators.

	The second witness will be Dr. William B. Carey.  Dr. Carey is the director of behavioral 
pediatrics at the Children's Hospital of Philadelphia.  Prior to his current position, he served as a 
clinical professor of pediatrics at the University of Pennsylvania School of Medicine.  Dr. Carey is 
also the author of several books, including Developmental Behavioral Pediatrics, Understanding 
Your Child's Temperament, and Coping With Children's Temperament, a Guide for Professionals.

	Our final witness today will be Dr. Lance D. Clawson.  Dr. Clawson is currently a private 
psychiatrist in Cabin John, Maryland.  Additionally, he serves on the D.C. Commission on Mental 
Health in Washington, D.C.  Prior to his current position, Dr. Clawson worked as a staff 
psychiatrist at the Walter Reed Army Medical Center in Washington, D.C.  He is the recipient of 
several awards, including the American Academy of Child and Adolescent Psychiatry Presidential 
Scholar Award, and the Washington Psychiatric Society Award For Outstanding Services.

	Before the witnesses begin their testimony, I would like to remind our members who are 
here today that we will be asking questions after the entire panel has testified.  In addition, 
committee rule 2 imposes a 5-minute limit on all questions.

	Before we begin with Ms. Bryson, the light system you have in front of you will show 
green for 4 minutes, yellow for 1 minute, and red at the 5-minute mark.  I think you can probably 
figure out what all that means, without further explanation.  But essentially when you see the red, if 
you could finish winding up, that would be wonderful.

	And then when the witnesses, or all 3 of you are through testifying, we will go to the 
various members up here, and the exchange is also measured by 5 minutes, including questions and 
answers, just so you understand basically what the rules are.

	With that, we will start with Ms. Bryson.  Thank you for being here.

STATEMENT OF HON. KATHERINE BRYSON, STATE 
REPRESENTATIVE, UTAH HOUSE OF REPRESENTATIVES, OREM, 
UTAH.

Ms. Bryson  XE "Ms. Bryson"  .  Thank you.  Thank you so much for the opportunity to come 
before you this afternoon, and thank you for the opportunity to speak about this grave national 
issue.  Let me start by commending the committee for recognizing that the coercive use of 
psychotropic drugs on children is not a few isolated incidents, but is actually impacting hundreds, if 
not thousands, of families across America.

	While Utah was once the Ritalin capital of America, this schedule 2 drug seems to have 
dropped to a national average level now in our state.  However, in the wake of raised public 
awareness about the risks of Ritalin, other stimulants like Adderall and the amphetamine Dexedrine 
are deluging the child psychiatric market in its place.  In fact, Adderall now comprises 32 percent 
of the national stimulant market, with 6.1 million prescriptions in the year 2000, and 248 million in 
sales.  Yet this drug has already been cited in a North Dakota criminal judgment in 1999, where a 
young father was not held criminally responsible for the murder of his 5-week-old daughter, 
because he was in a psychotic state caused by Adderall.  Psychiatrists testified that the drug 
induced the psychotic state causing delusions.

	There are other drugs not covered by schedule 2 of the Controlled Substances Act that are 
also forced onto children, including Cylert, a schedule 4 drug, and antidepressants that are not 
scheduled at all.

	Zoloft and Paxil are among the group of new antidepressants that, in 1999, were prescribed 
to 1.7 million children.  In fact, between 1995 and 1999, there was a 19-fold increase in 2-year-olds 
to 19-year-olds prescribed these drugs.  A Fox National News series last November found that a 
person taking Paxil is 8 times more likely to attempt and commit suicide than if taking a placebo.

	More than half of the last 12 school shootings have been committed by teenagers who were 
taking psychotropic drugs.

	Meanwhile, school personnel faced with children who often have not been properly taught 
to read, who may be coming to school on a breakfast of sugar or no breakfast at all, who could be 
affected by lead, mercury or other toxic substances, or a plethora of explainable reasons, are 
assessing them in the classroom as having a learning disorder or attention deficit hyperactivity 
disorder.

	From here, parents are being coerced into drugging their children with threats of the child's 
expulsion or charges of medical neglect by child protective services against the parents who refuse 
to give or take their child off a psychotropic drug.  Parents are losing their right to choose.  They 
are being told that ADHD is a neurobiological disorder, when even the Surgeon General's 1999 
report on mental health cannot confirm this.

	They are being denied access to tutors or additional education services for the sake of a 
quick-fix drug like Ritalin that some studies say is more potent than cocaine.

	Often once the child is medicated, the various side effects associated with the drug and 
which I have found were too often not disclosed to the parents when they were first given the 
prescription, become apparent.  The child could have difficulty sleeping or eating.  They may have 
stomach problems and may become irritable.  Worse yet, when withdrawing from the drug, he or 
she may become so emotionally disturbed as to feel suicidal.

	While the parents may want to take the child off the drug at this point, they are too afraid of 
the implied consequences and feel powerless.

	While we spend over $50 billion on the war on drugs, we are allowing our teachers to be 
used as mental health clinicians, diagnosing learning problems as disorders and diseases and 
forcing this belief on parents.  I realize the gravity of the situation dealing with Ritalin after being 
contacted by many parents in Utah and hearing what I can only describe as horror stories, some of 
which I have attached to my written testimony.  I ran a bill in 2002 to prohibit school personnel 
from pressuring parents into drugging their children.  That bill actually passed by an overwhelming 
majority of 89, but tragically the governor of our state failed to listen to the needs of our families 
and vetoed the bill.  Thus, condoning the coercive drugging of Utah's future generation.

	Unless we as legislators do something about this, we become accomplices.  I support H.R. 
1170, but I have to say that I believe the committee would be remiss if they did not broaden it to 
include all prescribed psychotropic substances.  Again, thank you for allowing me to come 
forward.

Chairman Castle  XE "Chairman Castle"  .  Thank you, Ms. Bryson.  We appreciate your 
testimony.

WRITTEN STATEMENT OF HON. KATHERINE BRYSON, STATE REPRESENTATIVE, 
UTAH HOUSE OF REPRESENTATIVES, OREM, UTAH - APPENDIX C

Chairman Castle  XE "Chairman Castle"  .  And we will now turn to Dr. Carey.
STATEMENT OF WILLIAM CAREY, M.D., DIRECTOR OF BEHAVIORAL 
PEDIATRICS, CHILDREN'S HOSPITAL OF PHILADELPHIA, 
PHILADELPHIA, PENNSYLVANIA

Dr. Carey  XE "Dr. Carey"  .  Mr. Chairman, ladies and gentlemen, in the last two decades, the 
United states has experienced a great increase in the diagnosis of attention deficit hyperactivity 
disorder, or ADHD, and its treatment with stimulants.

	Not only child health professionals, but now also a wide variety of unqualified persons such 
as preschool teachers and acquaintances are freely offering the diagnosis and confidently urging 
parents to accept their judgment to obtain drug treatment such as methylphenidate or Ritalin for the 
child.  If the physician formally applies a label, educational and governmental authorities 
sometimes attempt to coerce parents into accepting the verdict and giving the medication or face 
the possibility of exclusion of the child from the school or being judged unfit parents.

	This chaotic situation urgently requires intervention at several levels, including the Federal 
Government.

	One should acknowledge at the outset that virtually all well-informed observers agree that 
about 1 to 2 percent of the child population are so perversely overactive or inattentive that they are 
very difficult for anyone to manage.  And although the cause of their problems is often not clear, 
they are likely to perform better with medication as a part of their management.  However, why are 
up to 17 percent or more children being given this label, and why is 80 percent of the world's 
methylphenidate being fed to American children?

	Several reasons.  In the first place, the diagnosis of ADHD is very impressionistic and 
highly subjective, making it easy to include a broad variety of children.

	For example, the component symptoms such as often talks excessively are not clearly 
different from normal.  There is no confirmatory laboratory tests, nor proof that the behaviors are in 
fact due to brain malfunction.  The diagnosis is usually made at the practical level by vaguely 
worded brief questionnaires.

	Secondly, even if one accepts the current definition, there is abundant evidence that it is not 
being applied rigorously at the practical level.  Two large surveys of medical practice in the leading 
psychiatric and pediatric journals have established that about 60 percent of the time medical 
practitioners are not using the established criteria.

	Thirdly, contrary to the popular notion, the stimulants being prescribed today are not 
specific for ADHD.  Improved behavior when taking them is not proof of the diagnosis.  Ritalin 
would make any of us function better, you and me.

	I am one of a group of pediatric moderates who say that both the radical critics who speak 
of conspiracies and fraud and the American Psychiatric Association's diagnostic system are wrong.  
We believe that these children do have real problems, but that the diagnosis and management is not 
so simple as it is presently being proposed by the association's official manual and management 
guidelines.

	There is no easy answer to this chaotic situation.  The main elements of a solution would 
be, one, a better diagnostic system; two, better research; three, better education of professionals and 
the public, and as to the range of normal behavior; four, better individualized evaluations of 
children; five, better treatment with greater reliance on psychosocial and educational interventions; 
six, better monitoring of aggressive advertising by the drug companies; and number seven, better 
reimbursement schemes so that physicians can be allowed to take the time necessary to do adequate 
evaluations.

	The appropriate professional groups must solve the first five of these steps, but the last two, 
drug companies and medical insurance, are within the proper range of the federal government.

	To these measures, I add the need for national legislation to prevent educational and 
governmental officials at any level from requiring parents to accept the diagnosis and use drug 
treatment for fear of legal actions of exclusions from school or child protective agency 
interventions for your special consideration today.  My reasons are simple.  The definition of 
ADHD is extremely vague.  The application of it in medical practice today is inadequately 
disciplined.  And the current treatment is nonspecific and noncurative.

	For parents to be penalized in any way for skepticism and noncompliance would be 
medically unsound and ethically unsupportable.  Thank you.

Chairman Castle  XE "Chairman Castle"  .  Thank you, Dr. Carey.

WRITTEN STATEMENT OF WILLIAM CAREY, M.D., DIRECTOR OF BEHAVIORAL 
PEDIATRICS, CHILDREN'S HOSPITAL OF PHILADELPHIA, PHILADELPHIA, 
PENNSYLVANIA - APPENDIX D

Chairman Castle  XE "Chairman Castle"  .  Dr. Clawson.
STATEMENT OF LANCE CLAWSON, PRIVATE PSYCHIATRIST, CABIN 
JOHN, MARYLAND.

Dr. Clawson  XE "Dr. Clawson"  .  First of all, let me thank Chairman Castle for the 
opportunity to appear before the subcommittee.  My testimony today is on behalf of the American 
Academy of Child and Adolescent Psychiatry, or AACAP for short.  I ask that my written remarks 
be entered into the record.

	The American Academy of Child and Adolescent Psychiatry is a national professional 
association representing 6,700 child and adolescent psychiatrists who are physicians with at least 5 
years of specialized training after medical school, emphasizing the diagnosis and treatment of 
mental illness in children and adolescents.  The AACAP is concerned about the effect of H.R. 
1170, legislation that was attached as an amendment to H.R. 1350, the Individuals With Disabilities 
Education Act.

	This amendment requires schools to develop policies and procedures prohibiting school 
personnel from requiring that a child be placed on psychotropic medications as a condition of 
attending school.  Although there have been highly publicized and isolated events that cause us all 
concern, there is no reliable evidence that such practices regularly occur or that this is a pervasive 
problem.  Medication assessment and prescription is the exclusive role of a qualified medical 
professional, not school personnel.  The decision to include medication as part of the treatment plan 
for a child or adolescent with a mental illness should be a decision agreed to by parents and 
caregivers in close consultation with a qualified and trusted medical professional.

	Schools are critically important, as they are a source of information for families about the 
children and their children's emotional and mental well being.  The importance of open 
communication between school professionals and families about the health and well being of 
students, and where indicated, the freedom to recommend a comprehensive medical evaluation 
cannot be overstated.

	The AACAP is concerned about legislation that would restrict school professionals from 
communicating with families about legitimate mental health-related concerns.  While H.R. 1170 
does not explicitly prohibit communication between school personnel and families about mental 
health concerns, its stern enforcement provisions could cause school personnel to be fearful about 
communicating with families regarding a student's emotional or behavioral difficulties.

	The more pressing issue as reported by the Surgeon General in 1999 is the unacceptably 
high number of children with mental illnesses that are not being diagnosed or treated.  The AACAP 
is concerned that H.R. 1350 may create a barrier for children and adolescents to treatment, and 
many of these children are identified in school settings.

	As noted in the opening remarks, we are here today to talk about the identification, 
diagnosis, and treatment of childhood mental illnesses such as attention deficit hyperactivity 
disorder, or ADHD for short.

	As a child and adolescent psychiatrist, when I think of ADHD, I think first to the faces of 
children and families that I have seen.  For instance, I think of an 8-year-old boy who is about to be 
left back in 2nd grade due to his disruptive behavior.  He has poor peer relationships, his 
schoolwork is very inconsistent, the teachers have labeled him difficult to control.  He has one 
other friend in school, and he is teased mercilessly by his peers.  He breaks down at home saying 
that he is stupid and no one likes him.  He is already convinced that he is bad and different, and 
with appropriate evaluation and treatment, this young man made a tremendous turnaround.

	I am as reminded of a 15-year-old girl.  She is in 9th grade.  She has a measured IQ of 140.  
She is well liked.  She has never really had had to put out much effort in school, but here she is in 
9th grade.  She is starting to fail classes, overwhelmed trying to keep up, cannot take notes, and 
cannot keep her mind focused.  She is often getting her homework done and then forgetting to hand 
it in.  She is having trouble being organized.  She is anxious and depressed about her performance.  
Her parents are overwhelmed, and once again this individual with appropriate diagnosis an 
appropriate treatment intervention had a tremendous turnaround.

	And finally, I think of a 42-year-old insurance broker who has been treated for depression 
and anxiety for years.  He was relieved and appreciative when he received an accurate diagnosis, 
but felt he had wasted 20 years of his life with these feelings of being ineffective.

	So let me be very clear.  ADHD is not an easy diagnosis to make, and you cannot do it in 5, 
10, 15, or even 30 minutes, and it should not be taken lightly.  There is good research to show that 
this diagnosis occurs in approximately 5 percent of the child and adolescent population.  
Approximately 50 percent of these individuals maintain their symptoms into adulthood, and we 
have made a number of recommendations that are listed at the end of my testimony, and which you 
can refer questions to me later.

	But I just want to underline that the research really demonstrates that it is really a minority 
of children that are being identified and being treated for this condition.  It varies between 
localities, but in general, there is an under diagnosis in treatment.

	So in summary, let me emphasize that child psychiatric disorders including ADHD are very 
real and diagnosable illnesses that affect a lot of kids.  The good news is that they are treatable.  We 
cannot cure all the kids we see, but comprehensive individualized intervention can significantly 
reduce the extent to which their conditions interfere with their lives.  So we must free teachers and 
parents to collaborate freely in order for the early identification and appropriate evaluation and 
intervention with these children.  Thank you.

WRITTEN STATEMENT OF LANCE CLAWSON, PRIVATE PSYCHIATRIST, CABIN JOHN, 
MARYLAND. - APPENDIX E

Chairman Castle  XE "Chairman Castle"  .  Well, let me thank all of the witnesses.  You 
raised many strong questions that we need to address or are being addressed, perhaps by legislation 
that is being introduced in states and before us here.  But obviously we understand all this is 
problematical, too.  So perhaps we can shed some light on it with a few questions here.

	Let me start the questions.  I will yield myself 5 minutes, and I will start with Ms. Bryson.  
Do you think that your own activities have made a difference in terms of what is happening in Utah 
with respect to the schools being a little more reluctant to make it a condition that students must 
have psychotropic-type drugs in order to come back to school?  Do you find from your study of this 
and you have studied it more extensively than I have, that there are pockets where there is a 
problem that is abused much more than it is in other areas, such as certain school districts or 
administrators?  What can you tell me about those subjects?

Ms. Bryson  XE "Ms. Bryson"  .  Thank you for the opportunity to address your questions.  
First of all, maybe I will start with your latter question having to do with pockets.  I believe that 
there are some within our state.  I know it was brought to my attention that one school in particular 
had a high number of students who were all on Ritalin.  There were classrooms where apparently 
there was some agreement that 80 percent of the kids in the class in a fourth grade class needed to 
all be on Ritalin or a psychotropic drug.  That is very frightening.

	I come from a state where a quarter of our population is children.  There have absolutely 
been situations within the state of Utah.  The legislation that I was involved with in the year 2002 
brought the issue to the forefront, and I know that our school and our board of education, has taken 
a few very minimal steps with regard to this.

	I will say that while I was working on the legislation, I did hear from several school districts 
that were looking at this and of course had some concerns, and we discussed this back and forth.  I 
think that one in particular probably led the charge, but we will be meeting with some of our 
administrative Rules Committees in the next few months trying to look at what has been introduced 
by the school administration.

Chairman Castle  XE "Chairman Castle"  .  Thank you.  I could go further with all that, but I 
want to ask the others a question.  I was going to ask you separate questions, but I am going to try 
and combine this perhaps into one.  I am a little concerned about what role the teachers and the 
schools play in this.  Our concern with legislation obviously is that it is a feeling that the schools 
are sort of dictating the need to get medical help.  I assume in each instance that is happening.  
They go to a doctor and get the prescription, that is the way it actually works.  And I agree with 
what you said, Dr. Carey, that we do need to train our teachers more thoroughly, especially to make 
sure they are not inappropriately identifying children who have disabilities.

	But I am concerned about that.  We have enough trouble training our teachers to teach 
math, English or whatever the subject matter may be.  There is a lot of discussion about that.  They 
have to deal with children with a variety of disabilities, some of which are not the disabilities that 
we are talking about here.  They have just the normal social problems to deal with as well.  And I 
am not sure exactly what responsibility we should be giving to these teachers.  Dr. Clawson, is it a 
teacher's responsibility to or is it the responsibility of the parents or perhaps everyone together?

	But I do not want to shift too much of the burden to the schools, and I am not sure that 
professionally they are capable of that.  What additional training would they need in order to do 
this?  I am not sure how much more professional training teachers can stand out there.  So that is a 
series of questions inherent in my sort of statement if you could take a stab at it, both of you, 
please.

Dr. Carey  XE "Dr. Carey"  .  I find that teachers, in spite of all their training, know very little 
about the normal range of behavior.  I think that this charge could be levied against some of my 
fellow medical practitioners as well.  I spent 35 years studying normal term remit differences, and I 
know that everybody has them, that some of them are hard to get along with, and that only rarely 
do they indicate that there is something wrong with the brain.

	Most kids who are active are just active and there is nothing wrong with them.  Most kids 
who are inattentive are just less attentive than average.  That does not mean that you have a 
pathological difference just because you are a little bit off of the mean.  And teachers need to 
appreciate that just because a kid is annoying doesn't mean that you have to ship them off to a 
physician with a request for medication.  I am covering an awful lot of material in just a few words, 
but to sum it up, I would say one thing that needs to happen in teacher education is that they need 
to have a greater appreciation of normal variation of kids' behavior and to know that there are some 
normal behavioral traits of stubbornness, shyness, loudness and so on which are annoying, but 
which are not abnormal and do not deserve to be treated with medication.

Chairman Castle  XE "Chairman Castle"  .  Dr. Clawson, the same question to you, maybe 
with some emphasis on just what responsibility teachers and administrators should have in this 
circumstance too.

Dr. Clawson  XE "Dr. Clawson"  .  Well, my sense is that it is not the purview of educators to 
recommend medication.  They know that.  That is actually the job of a licensed and trained 
physician with at least a reasonable amount of mental health expertise.  Teachers are generally 
good at recognizing when they are having difficulty with a child.  If that is the case, then the typical 
process is that they may discuss it with their principal, the school counselor, and the child's parents 
to come to some kind of collaborative conclusion that perhaps the problems are severe enough or 
the usual methods that they have attempted to rectify the problem if they have not been effective, 
so they would refer for a medical evaluation and a mental health evaluation.

	That is very appropriate.  What happens from that point on has nothing to do with the 
school.  The reality is it is the physician's job in collaboration with the patient and the patient's 
parents with information provided by the school as well as multiple other sources, including 
thorough medical evaluation, laboratories, studies, et cetera, to determine whether medication 
might be helpful.

	There are cases that come to me, which I do not prescribe medication.  I may suggest 
further classroom interventions, even though I am an individual that does prescribe medication.  It 
is not up to the school to decide that, and it is also up to the physician if the school is insisting on 
medication.  It is up to the physician to advocate for the patient to do what is appropriate, and 
therefore my sense also is that many times there is an over reliance on medication when there is an 
undersupply of mental health professionals, and we have a terrible undersupply of qualified mental 
health professionals in this country to assess children.  So many pediatricians or family 
practitioners that do not have a significant mental health background are being sent; saying this 
child is out of control, do something.

Chairman Castle  XE "Chairman Castle"  .  My time is up, but I do want to ask you a question 
to understand where you are coming from vis-�-vis what we do, which is creating laws here.  Mr. 
Burns has joined us.   What is your position on this legislation, which is before us?  It basically 
says that school personnel at some level cannot absolutely rule that the kid cannot attend the school 
unless the child is receiving medical treatment.  Do you support, oppose, or remain neutral with 
respect to this? 

Dr. Clawson  XE "Dr. Clawson"  .  Conceptually it is an interesting idea, because what we have 
been talking about, at least the other witnesses have testified to abuses.   However, I am talking 
about the general need to enhance collaboration between families and schools which is shown to -

Chairman Castle  XE "Chairman Castle"  .  I do not have a problem with that.  I -

Dr. Clawson  XE "Dr. Clawson"  .  Once we start sanctioning schools for bringing up their 
concerns, we could be creating further barriers.  That is -

Chairman Castle  XE "Chairman Castle"  .  But they are not bringing up their concerns.  They 
are making an absolute barrier to the child attending the school, and that is the question.  I have the 
same question.

Dr. Clawson  XE "Dr. Clawson"  .  I have seen no evidence to show that this is pervasive.  I do 
not doubt that there are situations where this has happened, but that is a miscarriage of the 
educational system.  I myself have been involved in cases where the school wants the child on 
medication.  The recommendation is the child should be on medication after a thorough evaluation 
and the parents continue to refuse, and so that is dealt with in an open forum in terms of how to 
provide the child services, even though they are not on medication.  And they are potentially not 
learning or even posing a danger.

Chairman Castle  XE "Chairman Castle"  .  Maybe I should drop out of this and let you and 
Ms. Bryson debate each other about how pervasive it really is.

Dr. Clawson  XE "Dr. Clawson"  .  I could not say that, but I have seen nothing in the 
literature.

Chairman Castle  XE "Chairman Castle"  .  I believe I am going to - oh, I am sorry.  Dr. 
Carey, did you want to comment on that?

Dr. Carey  XE "Dr. Carey"  .  Perhaps we can say that the school has the prerogative to exclude 
a child if he or she is so disruptive that it is destroying the classroom proceedings, but they do not 
have the right to indicate what should be done about it.  That is fairly clear.

Chairman Castle  XE "Chairman Castle"  .  That is helpful.

	Let me, at this time; yield 5 minutes to Mr. Case.

Mr. Case  XE "Mr. Case"  .  Thank you, Chair.  I would like to stay with the same train of 
thought, because I do have some of the same concerns.  I preface my remarks by saying that I 
cosponsored this legislation with my colleague, Mr. Burns, because I share his belief that perhaps 
there are situations out there that represent abuse.

	Dr. Clawson, you are probably as good a person to ask as any.  We have an obligation 
under IDEA to provide a free and appropriate education.  That has been interpreted rightly to 
require that children with special needs be accommodated in the regular classroom, not shunted to 
the side.

	How frequent is it that a child with special needs who is diagnosed with a condition that 
Ritalin could address satisfactorily, no question about it, does not take that drug, could not be 
reasonably accommodated in the regular classroom?  That is the question I have.  I guess the 
question that I am really putting to you, or thinking out loud about and inviting any of your 
comment about, is: is an absolute prohibition really the right place for us to go?  Are there 
situations where we do want to say that we cannot accommodate, "we" being the school, in 
conjunction with the medical providers and under the diagnosis of the medical provider, what we 
do not believe that the child can be accommodated in the regular classroom without some 
medication?  That is the question, I think.

Dr. Clawson  XE "Dr. Clawson"  .  In my experience, that is a frequent occurrence.  Many 
times medication allows the child to be in what IDEA would refer to as the least restrictive 
environment.  And the aim would be the regular classroom.

	I do not know if you have been in many elementary school classrooms recently, but they 
tend to be very large, and the teachers really have a difficult time managing them.  To put children 
that are very disruptive in a regular classroom tends to disrupt the educational process for all the 
children.

	So I would say there are probably many cases that I run into on a weekly basis where the 
judicious application of psychotropic medication after a thorough medical and psychiatric 
evaluation does help the child function within the regular education setting, or within the least 
restrictive environment.

Mr. Case  XE "Mr. Case"  .  How do we accommodate that basic thought - which I think makes 
a lot of common sense, with the concern that, in essence, we are overmedicating in order to really 
cop out, if I can put it that way, of the need to accommodate a child with special needs in a way 
that takes care of his or her rights under federal law?  What the bill says as introduced at least, and 
we can obviously change it, is "any school personnel".  I suppose that means any medical doctor on 
staff rather than teachers, but is that the place to do that.  I assume you have worked with special 
needs children.

	Is the place to do that in the formulation of the IEP, that we could say in the context of that 
IEP that if there is that situation where a child can really only reasonably be accommodated in a 
classroom with some use of drugs refuses that medication with his or her parents' input, that that 
could be a condition of not being accommodated in the regular classroom and really retreated 
outside the classroom?

Dr. Clawson  XE "Dr. Clawson"  .  Yeah.  I think that is -

Mr. Case  XE "Mr. Case"  .  And be subject to the full range of the ability of the parents to sue 
and have a due process hearing, if that is what it took - .

Dr. Clawson  XE "Dr. Clawson"  .  Those rights are in place now and that is a process I have 
been involved in before in terms of children requiring more restrictive environments because the 
family is not in support of medication.

Mr. Case  XE "Mr. Case"  .  Is that process working?

Dr. Clawson  XE "Dr. Clawson"  .  In my experience it is.  It can be fairly contentious, and the 
parents have to be fairly motivated or tough to resist the school saying, they would like to have 
your child in the regular class or this type of class, but we really cannot manage them.

Mr. Case  XE "Mr. Case"  .  So perhaps what we are really getting at in the context of this 
legislation is a situation where the parents might not be quite as involved in the IEP where the 
schools possibly are overmedicating or are too quick to medicate, if I can put it that way.

Dr. Clawson  XE "Dr. Clawson"  .  Well, the schools are not the ones medicating.

Mr. Case  XE "Mr. Case"  .  I understand that, but you have got the bill saying "school 
personnel".

Dr. Clawson  XE "Dr. Clawson"  .  Schools do not medicate.  They can mention medication, 
but the most a school can legally or realistically do is encourage the family to take the child to a 
physician for an evaluation.  We hope at that point that the physician engages in a comprehensive 
medical psychiatric assessment to determine the need for psychotropic medication.

	My concern is with this amendment.   Even though it might sanction those individuals who 
are abusing it, this legislation could throw a pall over the entire educational system.  Teachers feel 
tremendous pressure to try and accommodate children in the regular classroom.  They feel pressure 
to do that and yet they are many times overwhelmed and are already worried enough about being 
sued.

	When you go in these IEP meetings, the schools are constantly on the defensive.  We throw 
in more laws, and they are only going to be more concerned.  So basically, the schools will cease to 
be helpful, because they cannot say anything.  They have to remain extremely legalistic.  It is sad to 
see, because you lose that collaborative process between parent and school.  And all the research 
shows that when you have a good family school collaboration, you have a better school.  Okay?

	So the more the school is fearful of engaging the parents and expressing themselves freely, 
the more we are going to inhibit this collaboration, which is so necessary.

	If we are taking this one-size-fits-all amendment and just tell everyone that they cannot say 
anything, then I think we are really kind of throwing the baby out with the bathwater on some level.

Mr. Case  XE "Mr. Case"  .  Thank you very much.

Chairman Castle  XE "Chairman Castle"  .  Thank you, Mr. Case.

	We will now turn to Mr. Burns, who is the sponsor of the legislation.  I believe he has a 
statement, and we will yield to him for that and his questions.

STATEMENT OF REPRESENATIVE MAX BURNS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C. 

Mr. Burns  XE "Mr. Burns"  .  Thank you, Mr. Chairman.  I appreciate the committee holding 
these hearings today.  I apologize for stepping in late, but I want to start with a statement and then 
have an opportunity to pose a few questions to the panel.

	The Child Medication Safety Act of 2003, H.R. 1170, addresses a significant problem 
facing children and their parents throughout the nation.  Some schools unfortunately are requiring 
parents to place their child on drugs in order to attend school, and I think this is wrong.  No parent 
should ever be coerced by a teacher, principal, or other school official to place their child on a 
psychotropic drug.  No child should ever face the denial of educational services only because they 
are not taking a psychotropic drug.

	Psychotropic drugs such as Ritalin, Adderall, or other drugs when carefully prescribed by a 
licensed medical practitioner and carefully monitored in the administration, can certainly help an 
individual with attention deficit disorder or attention deficit hyperactivity disorder, controlling 
symptoms of their disease so that they can function effectively.

	These can be miracle drugs for many people, and when properly diagnosed and properly 
administered, many people benefit greatly from their use.  But for those who do not need these 
drugs, they can be harmful.  In several sad instances, children that have been placed on these drugs 
have died from complications arising from psychotropic drug use.  H.R. 1170 is not antischool.  It 
is not antiteacher.  It is not antimedication.  This bill is designed to be pro-children and pro-parents.

	The legislation simply protects our children from unnecessary medication, and it provides 
the parents with the decision-making power that they should have for their children already.

	I offered a modification of this bill as an amendment during the markup of H.R. 1350, the 
IDEA reauthorization.  This amendment was broadly supported in a bipartisan manner.  Because 
the amendment only applies to schools receiving special education funds, I am hopeful that this 
legislation will move as a stand-alone measure as well so that parents with children in all of our 
schools receiving federal funds can have the freedom to choose when their child should be 
medicated.

	I thank my cosponsors for their support.  I urge the members of the committee to support 
this legislation as it works through, and I would like to again thank the chairman for holding the 
hearing today and thank the panel for their input.

	I would like to ask Dr. Bryson to perhaps refresh my memory on the challenges in Utah.  Is 
this a pervasive problem?  Do you see this as pervasive?

WRITTEN STATEMENT OF REPRESENATIVE MAX BURNS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE, U.S. HOUSE OF REPRESENATIVES, 
WASHINGTON, D.C. - APPENDIX F

Ms. Bryson  XE "Ms. Bryson"  .  Thank you.  And I wish it was, Doctor, but it isn't.  I do serve 
in the Legislature, but thank you.

Mr. Burns  XE "Mr. Burns"  .  You sit with other doctors.  I thought perhaps.  I misspoke.

Ms. Bryson  XE "Ms. Bryson"  .  Thank you.  I will tell you that running this legislation in the 
year 2002 was a real eye-opener, because I discovered that Utah was not alone.  There were a 
number of states, particularly in the eastern part of the United States, and neighboring states around 
me, including Colorado, Nevada, Arizona, and California, were all dealing with similar problems, 
where there was coercion felt by parents, that if they did not give these drugs to their children, their 
children would not be allowed in the classroom.

	In our state we have what is called DCFS, the Division of Child and Family Services, and it 
was a condition of neglect if you did not give your child medication.

	Now, in my state as well, I mentioned earlier that a fourth of our population are kids.  I am 
a mother of 6 children.  You label my oldest child Lisa with ADHD, and I cause a ruckus in my 
school.  Most likely, my other 5 children are going to suffer in school, and that is what is really sad 
in the state of Utah.  Once the child is labeled, then what is the recourse for the parent?  I mean, 
this is supposed to be parental rights, and what we were trying to do with some legislation was to 
ensure that the parents had the information.  By the way, they are the taxpayers.  They are the ones 
that support us in government in these offices, and we need to be aware that they have rights.  
These are their children.  And I believe that what we were trying to do was to ensure that they did.

	Unfortunately, I mentioned earlier that our governor did not support that legislation, 
although it was unanimous in our House and our Senate.  But it is pervasive.  I believe that there 
are problems.  I believe that particularly young boys are being labeled, especially those that are 
rambunctious and anxious.  They do fidget in the classroom.  I have often suggested that those 
members of the Legislature in my state have every single one of these remarkable, what I would 
call qualities that may label them as ADHD.  I have often thought, yes, and you have to be 
aggressive to become a legislator.  So maybe that as well.

	But in looking at all of this, it is a sad situation when we have to drug kids to teach them.  I 
taught school myself in California back in the mid 1970s.  I had kids who were in my little 5th 
grade class who were going out and being medicated at noon and coming back in the classroom, 
and they were literally what I would term zombies for the rest of the afternoon.  Now, that was not 
a situation where I could help meet their education needs.  They were in a position where they were 
not receptive.  They could not be receptive, and it was a wonderful classroom.  They were now 
compliant.  Yes, they were compliant, but were they teachable and were they learning anything?  I 
do not believe so.

I believe it was a total disservice to them, and unfortunately, I have to say in defense of 
teachers, I think that this is a responsibility we should not be placing on them.  They are there to be 
teaching.  That is not what they went to school to learn.  I think all of us that were teaching school 
believed that we were coming there to give help to see young people succeed.  I do not believe that 
the intent was ever to have us start diagnosing.  My heart actually goes out to teachers that have 
been expected today do this.  I think it is a real misplacement of responsibility.

Mr. Burns  XE "Mr. Burns"  .  I think as our educational system recognizes that their role is 
one of a participant, as perhaps Dr. Clawson pointed out.  I certainly support strong parental 
involvement throughout the educational process, and to ensure that each child achieves their 
highest maximum potential.

	Perhaps there is disagreement on the panel about the pervasiveness.  Dr. Carey.

Dr. Carey  XE "Dr. Carey"  .  Pervasive?

Mr. Burns  XE "Mr. Burns"  .  Pervasiveness.

Dr. Carey  XE "Dr. Carey"  .  Of what?

Mr. Burns  XE "Mr. Burns"  .  As far as the excessive use of medication in our schools today.

Dr. Carey  XE "Dr. Carey"  .  Are you talking about pervasiveness of symptoms or of the use 
of the medication?

Mr. Burns  XE "Mr. Burns"  .  The use of the medication.

Dr. Carey  XE "Dr. Carey"  .  Well - 

Mr. Burns  XE "Mr. Burns"  .  Is it a pervasive problem?  Do you see it as a pervasive 
problem?

Dr. Carey  XE "Dr. Carey"  .  Yes, it is.  It really is.  I guess you did not hear my statement.

Mr. Burns  XE "Mr. Burns"  .  I did not.  That is why I have to ask you.  I would like to see if 
there is consensus.  Dr. Clawson, do you see it as a pervasive problem?

Dr. Clawson  XE "Dr. Clawson"  .  Basically, there is recent research that was published in 
September 2002 where an old research mentor of mine from Columbia, Dr. Peter Jensen, in 4 cities 
across the U.S. - in Atlanta, New Haven, Westchester and San Juan, Puerto Rico - went into the 
records and evaluated 1,285 children in depth using stringent criteria, and what they found was 5.1 
percent of the children between the ages of 9 and 17 qualified for a diagnosis of ADHD.

	Interestingly, only 12.1 percent of these children were being medicated.  Okay?  Out of the 
approximately 1,300.

	Out of the 1,300, there were 8 children that were being medicated for ADHD that probably 
did not meet full criteria for ADHD.

Mr. Burns  XE "Mr. Burns"  .  That was a study of a thousand in 4 locations?

Dr. Clawson  XE "Dr. Clawson"  .  No.  Four locations, a study of nearly 1,300 children.  And 
so all I can say is the recent research shows at least in these large metropolitan areas, we are not 
necessarily over diagnosing or overmedicating.

	If you will look at Rochester, Minnesota, the Mayo Clinic did a very detailed study and 
followed kids for 6 years that had tremendous access to medical care.  Out of all the children that 
were diagnosed with ADHD, approximately two-thirds or three quarters were being medicated that 
had formal diagnoses.  So it is hard for me to say prevalence other than what I know is out there in 
the research.

Mr. Burns  XE "Mr. Burns"  .  I will wrap up.  Do you see this legislation as doing harm?  Do 
you see any down side?  You know, the objective here is to protect children.

Dr. Clawson  XE "Dr. Clawson"  .  I think this legislation is kind of the after effect of having 
severe mental health shortages for children and adolescents in this country, and we are trying to 
legislate telling teachers, not to say there is a problem or mention medication.  My sense is, if we 
take this blanket approach to where children are being under diagnosed and under medicated, we 
will put a further pall or further barrier to potential access, although I am not - .

Mr. Burns  XE "Mr. Burns"  .  Is your perception that we are under diagnosing and under 
medicating?

Dr. Clawson  XE "Dr. Clawson"  .  All the research that I have seen actually says that we are 
under diagnosing.  I cannot say under medicating.  There are certainly circumstances where it 
appears that -

Mr. Burns  XE "Mr. Burns"  .  How does that break out by ethnicity?

Dr. Clawson  XE "Dr. Clawson"  .  I do not have those figures right now in front of me.  There 
have been studies that have revealed that children of minority backgrounds are more frequently 
medicated.

Mr. Burns  XE "Mr. Burns"  .  Three times, I believe, more - 

Dr. Clawson  XE "Dr. Clawson"  .  And I will also point out that there is also indication that the 
less mental health resources you have available, often the higher the use of psychotropic 
medication.

Chairman Castle  XE "Chairman Castle"  .  Thank you, Mr. Burns.

Mrs. Davis  XE "Mrs. Davis"  .

Mrs. Davis  XE "Mrs. Davis"  .  Thank you, Mr. Chairman, and I am glad that that issue came 
up, because I guess that would be a concern.  I know that several years ago in San Diego when we 
began assessing children's medical care and the largest majority of children came to school for their 
health care, essentially they saw the nurse as their primary care provider, and in those situations 
then, kids are less likely to get the kind of help and support that they need.

	I wondered, Representative Bryson, if in the Utah area, you had an opportunity to - if there 
had been any scientific data collected to indicate prevalence.  I know that anecdotally we are all 
concerned about that, and I can appreciate that, especially when you have groups or classrooms in 
one particular school or several schools cluster that seem to indicate very high levels of children 
that perhaps are under medication.  Were there any scientific studies that indicate what those 
numbers actually reveal?

Ms. Bryson  XE "Ms. Bryson"  .  Thank you.  Not to my knowledge.  The only thing that we 
were trying to find out was how many prescriptions had been written and what amounts of these 
types of drugs were being prescribed.  So there was not any scientific evidence.  I know that just 
recently, although I was trying to get my hands on it before coming here, the Department of Health 
in Utah apparently conducted some kind of study and determined that we were at or below the 
national average on prescriptions of Ritalin.  However, there are other drugs that are now being 
used as well.  Were there any studies on the number of uninsured children?  I am wondering if it is 
more or less with what the country would be.  Were there larger numbers of uninsured?  I guess the 
other question would be the perception of mental health and whether or not people believed that it 
was okay to seek a mental health professional, whether that was -

Ms. Bryson  XE "Ms. Bryson"  .  I cannot tell you that there was a study conducted, but I do not 
believe the perception was always appropriate to seek advice from a medical physician, a 
psychiatrist, or someone in the medical field.  I do not think that there was any problem with that, 
but it came back to information and having information about the side effects of these drugs.  It is a 
complex issue when you are a parent and it is being suggested by school personnel that you need to 
take your child here or there rather than these are the symptoms or this is what have seen in the 
behavior of your child.  You know, being specific is always appreciated by parents.

Mrs. Davis  XE "Mrs. Davis"  .  Right.  No, I understand that, and I think the bottom line - I 
suspect that all the witnesses would agree that information to parents is the most important thing 
we can provide, and in a nonbiased fashion.  And it surprises me having had experience with 
school districts that in fact the stories that you are sharing are representative of school policy, that it 
is actually written that a school board voted, is that correct, to do this?

Ms. Bryson  XE "Ms. Bryson"  .  Excuse me.  I am sorry.  What was mentioned earlier was 
something about encouraging.  What I was trying to say is there is nothing that is written that will 
indicate that they have ever made a medical diagnosis.  School personnel will not admit that they 
have ever said, you need to take your child to a psychiatrist or your child needs to be on Ritalin, but 
we know that has occurred, and often.

Mrs. Davis  XE "Mrs. Davis"  .  I guess what I am searching for as a former school board 
member is that there is a stated policy to suggest that, and if there is no stated policy, then I would 
think there would be some intervention on behalf of local officials that would basically say to 
school personnel that it is not appropriate and that there are resources available to help them, to 
support them, resources available to parents to do that.

	And I think that is where we need to be sure and encourage, and perhaps the federal role is a 
little different in that, but I think - I was concerned because I wasn't hearing that there was anything 
specific that was in school policy.

Ms. Bryson  XE "Ms. Bryson"  .  There has not been in school policy, and one of the reasons 
that legislation is being offered in so many states by legislators like myself is because there have 
been so many problems.  I mean, where things are being suggested to parents.  Maybe it has just 
gotten out of hand.  I believe that if you are dealing with this issue now, it is because it has gotten 
totally out of hand, in that school personnel, the expectations are that have been involved.  And it 
literally is diagnosing.  When you have a little 6-year-old - there are drugs that are not 
recommended for kids 6 years and under.  You mentioned something about some other statistics.  I 
was trying to derive statistics in my state on those who are on Medicaid, and I looked at numbers 
where children 0 to 3 were on drugs and questioning why and how and what in the world would 
ever cause someone to put a child - a baby, a baby literally, a toddler, on drugs.  It is very 
frightening.

Mrs. Davis  XE "Mrs. Davis"  .  Mr. Chairman, I know that my time is up.  I would just - I 
think in some ways it is a jurisdictional issue.  I think that if, in fact, we have school districts that 
are "recommending," then it seems to me that there is a jurisdictional issue here whether or not 
school boards determine that, in fact, that is not appropriate district policy, and there are certainly 
guidelines that should be adhered to.  And we need to be certain that at least they are doing that, 
because I think that is a first step, no matter where you go, and the extent to which we need to 
legislate here is really a different matter, but I would certainly hope that local school boards are 
providing the direction and the support so that people know where the resources are, that they are 
out there.  People can make a judgment about that as parents, and I believe totally that parents 
should have that decision, and, you know, honestly sometimes - there is more sophistication than 
others in this area, but that is not to say that parents shouldn't have this information, and there are 
lots of ways to provide that.  And all children should have the ability to have their parents at least 
have good information.

Chairman Castle  XE "Chairman Castle"  .  Thank you, Mrs. Davis.

Ms. Woolsey  XE "Ms. Woolsey"  .

Ms. Woolsey  XE "Ms. Woolsey"  .  When I was a little kid, my grandfather used to sit me down 
in a chair, and he would pay me a nickel for every minute that I did not move, and I never earned 
one nickel.  I was in my 60s before I learned how not to move.

	So I am truly, truly worried about people who are going to be just fine, little kids, and 
putting a label on them and giving them drugs.  But I am also concerned that we are talking black 
and white.  There is no gray in what we are talking about today.  And, I mean, if a student entered 
the classroom with a broken arm and the parents absolutely refused to help this little kid who was 
in great pain, what would we do then?  And I see a kid that is in - with ADHD being in great pain.  
But that is the real ADHD; I mean, not something because we have got boys that speak out in big 
classrooms that disrupt the classroom.

	So I just - how are we going to get to understanding that kids have to be individuals without 
coercing their parents to put them on drugs?  That is my fear.  And I want to stop that now.  I mean, 
I would go too far one way in order to stop that, I am so very, very concerned about it, but I know 
there is real need also.

	So in talking to me about this, starting with you, Dr. Carey, would you also tell me why - 
and if you think I am wrong - that there are more kids really with ADHD than there were when I 
was a kid, when you were a kid, when you were a kid.  Is it real?  I mean, is it because their parents 
didn't take care of themselves physically or what?

Dr. Carey  XE "Dr. Carey"  .  One cannot answer that question with complete certainty, but I 
suspect the human race has not changed very much since our childhood.  I think kids used to 
squirm, and they just squirmed.  I share your concern, and you are not going too far in saying that a 
great deal of normal behavior has been pathologized by people who do not know the full range of 
normal behavior.  As I mentioned, I have been studying this for 35 years, and I see a great deal of 
over diagnosis of normal behavior as being such things as ADHD.

	My chums in psychiatry say they are concerned about both over- and under diagnosis, but 
they really are concerned more about the under diagnosis.  I, as a pediatrician, am more concerned 
about the over diagnosis, because I see a lot of kids who are depressed, who have come from 
abusive homes, who come to school hungry, sleepy, and the real problem is something other than 
the putative brain defect which underlies ADHD.  So keep up your struggle.  You are not going too 
far.

Ms. Woolsey  XE "Ms. Woolsey"  .  Dr. Clawson, do you want to respond to that?

Dr. Clawson  XE "Dr. Clawson"  .  Could you reframe your question briefly?

Ms. Woolsey  XE "Ms. Woolsey"  .  Well, just mainly are there more children with ADHD than 
in the past?  I mean, truly - .

Dr. Clawson  XE "Dr. Clawson"  .  Once again, that is very difficult.  I think that the field has 
advanced, and so our diagnostic specificity has improved over the years, and there is greater 
publicity and greater public education about ADHD as a diagnosis.  I do not feel that at its core 
there are more people with ADHD than there were.  I think there is perhaps an increased 
identification, as well as perhaps shifts in culture.  I might hypothesize in terms of what we are 
expecting of kids, and whether there is a tolerance for squirminess or not.

	I do feel that there are cases of over diagnosis, but I would say the research, including the 
Surgeon General's report, shows that there is massive under diagnosis.  Only 1 in 5 kids with a 
mental illness is being treated, and these other factors that are brought up about abuse, poverty, 
those are very real issues, and those do not say that a diagnosis of ADHD exists or does not exist, 
but those are very important issues that have to be addressed as well.  Unfortunately an amendment 
like this does not really address.

Ms. Woolsey  XE "Ms. Woolsey"  .  Well, what would this amendment do if a parent had 
insisted that the child be on drugs and the school new absolutely for sure that that kid didn't need to 
be on drugs?  What happens with this amendment?  It sounds to me like the teachers don't have a 
voice in that.  Has anybody looked at it from that regard?  Have you, Katherine?

Ms. Bryson  XE "Ms. Bryson"  .  I have not, but you know the bottom line is the parent's right, 
and in fact, it is very unique.  I have never been in a situation where someone has come forward.

Ms. Woolsey  XE "Ms. Woolsey"  .  Dr. Carey, do you have - .

Dr. Carey  XE "Dr. Carey"  .  That is an unusual situation, I would submit, and it is the parent's 
decision, and it is the school's responsibility to do something only if the use of drugs is impairing 
the kid's school function.

Ms. Woolsey  XE "Ms. Woolsey"  .  Okay.  Well, Dr. Clawson.

Dr. Clawson  XE "Dr. Clawson"  .  I would agree that if the child is being impaired somehow, 
it is a decision that is made collaboratively with the parents and the physician, and we cannot let 
the physicians abdicate their responsibility by throwing the burden on the schools.

Ms. Woolsey  XE "Ms. Woolsey"  .  We may do another round.  Right?

Chairman Castle  XE "Chairman Castle"  .  Well, we may, may not.  We will have a 
discussion about that.

	Thank you, Ms. Woolsey.

Mr. Wilson  XE "Mr. Wilson"  .

Mr. Wilson  XE "Mr. Wilson"  .  Thank you, Mr. Chairman.  I would like to thank all three of 
you for being here today, and I also want to congratulate the freshman Congressman from Georgia, 
Mr. Burns, for proposing this, and he has just been so proactive here in Congress.  We are really 
proud of his service.

	This is an issue that is important to me.  I have had two sons in resource classes.  This has 
been a big week, and one of them will be sworn in to the Bar Association.  I know that the 
Congressman thinks we need more Congressmen.  And then the other will take concluding
exams on Friday.  I am confident he will continue his dean's list position in college as a senior.  So 
it is amazing what can be done, and our family is very appreciative.  But I am concerned about this 
issue.  For all three of you, I would like to know what your thoughts are on expanding the scope of 
H.R. 1170, to include other drugs under the Controlled Substances Act, beginning with 
Representative Bryson.

Ms. Bryson  XE "Ms. Bryson"  .  I would love to see that occur.  I think that is applaudable.  I 
think that it needs to happen, and I appreciate such consideration.  I probably could go on, but I 
think those who have much more knowledge in the medical arena could speak to this as well.

Dr. Carey  XE "Dr. Carey"  .  Well, I guess Dr. Clawson should be the one with the answer 
here, but I would say that there are other drugs being given now.  The second most common 
diagnosis now seems to be bipolar disorder, which seems to be getting hooked onto a great variety 
of kids, and they are getting various medications for that.  Pretty soon teachers will be starting to 
tell parents that their kids have bipolar disorder and they could be getting medicated.

	So by extension, it seems to me that, yes, it should be extended to other drugs as well.

Dr. Clawson  XE "Dr. Clawson"  .  When you mentioned controlled substances, that is a fairly 
formal category of drugs that are felt to have physiologic, addictive, and abuse potential.  So I am a 
little confused by your question in terms of drugs being controlled.  This goes to the same issue.  
Only one fifth of children in the country are being treated for mental illnesses.  There are a lot of 
untreated mental illnesses.  Psychotropic medications are used in certain mental illnesses or at 
certain levels of severity.

	My argument would be similar.  I do not think teachers really have the training or the 
authority to determine whether students need this drug or that drug.  Once again, we are trying to 
limit the collaborative process that goes on where teachers are providing information to parents 
who then decide on their own whether to seek medical consultation, and then collaborate with and 
decide in conjunction with their physician whether to try psychotropic medication.

	So I would not support that for the same reasons that I cited earlier.

Mr. Wilson  XE "Mr. Wilson"  .  Thank you very much, and, again, Representative Bryson, we 
really appreciate you being so active in this and coming all the way to Washington to educate us.

	Do you have any ideas on how to work with teachers, doctors, and parents, to reduce the 
emphasis of medication as the first answer and instead look to other ways to work with the child to 
address the issue?

Ms. Bryson  XE "Ms. Bryson"  .  Thank you.  I mention that I myself had taught school some 
years ago, and I kept thinking there was never any mention of medication.  There was never 
anything.  It was always classroom intervention.  I mean, there were methods to deal with 
behavioral situations.  In fact, sitting here, I thought about what we would do if there were not any 
types of medication out there, which we seem to use so freely.  Who would have thought 30 years 
ago that we would hear the term Ritalin and that 6 to 8 million kids would be on this particular drug 
or drugs like it?  But are there other issues here?  I think we need to look more carefully at when 
we do any kind of diagnosis of kids.  When we are looking at their problems as far as reading or 
math or the areas that are of real concern.

	I am not a physician, but I know from my experience as a teacher, there were things that I 
felt could be implemented in the classroom, and I am sure that with some consideration, that this 
again - I mean, there are interventions you look at when you have behavioral problems in a 
classroom, and communication with a parent such as writing letters.  In our state trying to just 
suggest that communication done through letters was not amenable to our school boards.  It was 
almost like if you make a commitment to acknowledge that there might be a problem, that that was 
unacceptable.  It was a very strange situation and very uncomfortable for me.

	But coming back, I think that there have to be other interventions, and maybe even the 
mental health community can look at this.  But I do not believe that in all these cases that we just 
put these kids on drugs.

Mr. Wilson  XE "Mr. Wilson"  .  Thank you, and I know that my wife who is a schoolteacher 
would agree with you.  Thank you very much.  I now yield the balance of my time.

Chairman Castle  XE "Chairman Castle"  .  Thank you, Mr. Wilson.

Mr. Van Hollen  XE "Mr. Van Hollen"   is next.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  Thank you, Mr. Chairman, and I want to thank 
Congressman Burns for the hearing as well, and Mr. Chairman as well for the opportunity.

	I just want to make sure I understand the - we have got the legislation, but then there seems 
to be a broader debate beyond the legislation as to the prevalence of ADHD and the use of Ritalin, 
because the legislation I think from the testimony on all sides, it is clear that no one thinks that 
teachers should be prescribing Ritalin or saying that we should require kids as a condition to going 
to school to take Ritalin.  I think the general consensus I hear all of you say is this is something that 
belongs in the medical practice and should be diagnosed by a physician.

	But I would ask you, Representative, what your sense is with respect to whether or not there 
is a legitimate diagnosis for ADHD and whether you believe that it is appropriate in certain cases to 
prescribe Ritalin for that.

Dr. Carey  XE "Dr. Carey"  .  Perhaps you missed what I said earlier.  I said that there are a 
small percentage of children who undeniably are so overactive or inattentive, that they are hard for 
anybody to manage.  But I would put that about 1 or 2 percent.  The official psychiatric view is 3 to 
5 percent, kids who really have a problem, where it is the inattentiveness or the activity that are the 
problem.

	Now, this has become a convenient wastebasket into which all other problematic kids can 
be thrown.  The kids who are having trouble learning, who are difficult to get along with, who are 
hungry, who are sleepy and so on.  It certainly should not go any higher than 5 percent, and yet it 
does go quite a bit higher than that.  As I mentioned, 17 percent in a study in Norfolk, Virginia, and 
I heard anecdotally recently that in a certain elite private school in New York City, it is 40 percent.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  And Representative Bryson, do you have an opinion 
on this issue?

Ms. Bryson  XE "Ms. Bryson"  .  I would agree.  I would have to agree wholeheartedly with Dr. 
Carey.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  Well, one of the issues here - we are trying to get to 
the relationship between a schoolteacher who has children in the classroom for a good part of the 
day obviously and the parents and what that appropriate relationship is.

	If you are a parent and you seek out the advice of a teacher, you say, how is my child doing 
in your classroom, do you believe it is inappropriate for the teacher to offer an opinion on that if 
part of that opinion is, you know, he is acting like other kids who have this ADHD.

Ms. Bryson  XE "Ms. Bryson"  .  As I mentioned, I taught some years ago.  I always felt that it 
was my responsibility to convey to the parent what was happening, at least quarterly, if not more 
often by meeting with parents and talking with them.  But I think it is important is to convey 
exactly what you are observing, rather than that this child over here takes Ritalin, and, you know, 
your son looks just like him.  Well, maybe Johnny over here should not have even been on Ritalin, 
and so that is a false assumption.

	I believe that we need to be very puristic about this, and if we see a child and, yes, he may 
have problems in reading or, yes, he may be out on the playground and at times he seems a little bit 
aggressive.  However, I think those are things that we convey and communicate to the parents and 
let the parents who deal with that child a lot more than we do - I mean, than teacher does, makes 
those decisions, but at least present the information.

	I think parents, ultimately, love that child.  No matter what anyone says, I believe they do 
love their children, and they want to see their child succeed.  As a mother of 6, I like information so 
that my child can strive and do their best.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  I understand.  I guess I am trying to get at the 
relationship between the parent, who I agree loves the child who actually seeks out information 
from a teacher, and whether or not what kind of limitations we may be putting on teachers that we 
may think are actually appropriate opinions.  I would be interested, Dr. Clawson - you actually deal 
with this issue on a regular basis.  What do you think the impact of something like this could have 
on that relationship?

Dr. Clawson  XE "Dr. Clawson"  .  Well, I think as I testified to earlier, I think once again we 
are putting further restrictions on teachers.  Teachers have a number of demands and restrictions for 
documentation, what they can and cannot say.  And once again, we are telling them you can make a 
conclusion.  I have had many teachers make similar conclusions but couch it and say, listen, I have 
had other kids respond to this.  I do not know, but my opinion is you should have this investigated 
further by a medical professional.

	It is not necessarily wrong.  Every time a teacher voices an opinion, I would not say that 
that is coercion.  That is expressing an opinion which parents can then take and investigate and 
make a decision, you know, as parents of this child.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  Right.  Ultimately, any prescription has to be made 
and diagnosed by a medical - .

Dr. Clawson  XE "Dr. Clawson"  .  Right.  Teachers recommend vision screenings.  They 
recommend hearing screenings if they have concern regarding a child's general health in the 
classroom.  We want them to be able to do that, and in the same way, I think we would want to be 
able to allow them to feel free to make recommendations or suggestions regarding issues around a 
child's emotional and mental well-being.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  Right.  I think everyone would agree we don't want 
teachers coercing the parent, but on the other hand it seems to me the parent, as Representative 
Bryson, you said, I mean, they should have all the information.  And they can choose to disregard 
the teacher's opinion, but I guess my question is why would we want to - obviously we don't want a 
teacher saying you have to put your kid on Ritalin and making the diagnosis in order to come to 
school, but if the parent were to seek out the opinion of a teacher with the obvious understanding 
the teacher can't make the prescription, it is going to be a doctor, why would we prohibit a teacher 
from offering an opinion in response to a question from parent?  Representative - I was asking 
Representative Bryson.

Ms. Bryson  XE "Ms. Bryson"  .  I was listening to you.  I was just thinking of what you really 
want as parent is to know what is happening to your child, but in some cases you do not want to 
discourage a teacher from communicating with you, but you also do not want them to act as the 
physician.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  I think we are in agreement on the fact that we don't 
want the teacher to act as a physician.  My concern is that we somehow prohibit a teacher from 
responding - providing their opinion in response to a request from a parent.  I mean, I may have my 
child at home and I have been observing the child, and I may have some concerns and I want to 
know what is going on in the classroom, and I want to ask the teacher about that and ask that 
teacher's opinion with respect to it.

	I can disregard that opinion.  I mean, I guess why are we afraid of the - I understand why 
we are we would be concerned about any teacher requiring a parent to put a kid on Ritalin, but why 
are we afraid of just having the opinion of a teacher reach the parent with respect to this?

Ms. Bryson  XE "Ms. Bryson"  .  It has been my experience that what you are suggesting is 
probably not what is occurring as frequently and what is happening is just the opposite, is where 
the teacher is approaching the parent and suggesting that there are some problems.  From there 
sometimes it goes as far as even suggesting that Johnny in the classroom is on Ritalin, and maybe 
that will help your son.  And that is the direction I guess that when I have been approached as a 
legislator, that is what I have heard.

Mr. Van Hollen  XE "Mr. Van Hollen"  .  Thank you, Mr. Chairman.  If I could just - if I could 
have something submitted for the record.  It is a statement by Audrey Spolarich, who is the Chair 
of the Coalition of Children's Health which outlines a number of opinions on this whole issue and 
some concerns.

Chairman Castle  XE "Chairman Castle"  .  Without objection, the document is submitted for 
the record as accepted [SEE APPENDIX G].

Chairman Castle  XE "Chairman Castle"  .  We are going to go to Mrs. Musgrave at this 
point.

Dr. Carey  XE "Dr. Carey"  , did you have something you wanted to say on that before we went 
to the next questioner?  Your light was on is the reason I ask that.

Dr. Carey  XE "Dr. Carey"  .  Well, hopefully parents will understand that teachers are not 
diagnosticians and they should not be asking them in the first place, and teachers should have the 
sense not to give diagnosis when they are asked.  But we cannot stop that from happening, can we?  
Or can we?

Mr. Van Hollen  XE "Mr. Van Hollen"  .  I guess the issue is - and just getting back to the 
distinction between something I think everyone should agree on, which is that teachers shouldn't be 
saying-playing the role of doctors and saying, you know, your kid can't come to school if they are 
not on Ritalin.  I am sure there is a big debate to the extent that is happening.  Some people say it is 
happening a lot, some people say it is not.  But between that issue and a parent who is genuinely 
concerned and is seeking information possibly from a teacher in a classroom who is observing their 
child day in and day out and wanting to get the opinion of the teacher and whether this would have 
any impact on the ability of the teacher to express his or her opinion.

	The words of it don't require it, but-because it says they can't require them.  The bill is 
narrow in that sense.  It says, you know, prohibiting school personnel from requiring a child to 
obtain a prescription.  My question is, is part of your - is it your opinion, though, that it is - I am 
trying to get to the broader issue here.  Is it your opinion that it would be inappropriate for the 
teacher to offer an opinion in response to a question from the parent, whatever that opinion is, and 
understanding the parent can reject it?

Chairman Castle  XE "Chairman Castle"  .  Can you respond briefly, Dr. Carey?  We need to 
go - 

Dr. Carey  XE "Dr. Carey"  .  I would rather the teacher not respond, but I do not know how I 
am going to stop it.

Chairman Castle  XE "Chairman Castle"  .  Mrs. Musgrave.

Mrs. Musgrave  XE "Mrs. Musgrave"  .  Before I speak, Mr. Chairman, I would like to yield a 
minute to Mr. Burns.

Mr. Burns  XE "Mr. Burns"  .  I thank the lady from Colorado.  Just a point of clarification, and 
I appreciate my friend and colleague Mr. Van Hollen.  This is a very simple bill.  It is very specific.  
It does not in any way prohibit input or discussion or dialogue between teachers, parents, and 
physicians.  It does attempt to put the decision-making process in the hands of the trained medical 
professional and the parent, and I think that is very important.  I yield back the balance.  Thank 
you.

Mrs. Musgrave  XE "Mrs. Musgrave"  .  Thank you.  Coming from Colorado, you are aware of 
Columbine, the stain that will forever be on our state.  The school shooters were on Luvox and 
Prozac.  And as I understand this, they would not be prohibited from school coercion under this 
particular bill.  But as we consider those kinds of drugs and the behavior of those students, it is 
alarming to me, to say the least.  And what I am wondering about today, I would like to particularly 
address the doctors here, what do we know about the long-term effects of drugs like Ritalin or 
Adderall?

Dr. Clawson  XE "Dr. Clawson"  .  Essentially stimulants, amphetamines have been used 
longer than almost any other drug available that has been used since 1937.  Over the last 30 years, 
stimulants, particularly methylphenidate and dextroamphetamine are some of the best studied drugs 
of any drug available to humans.  They have been found to be generally safe and well tolerated.  
Like any medication, including over-the-counter medications, they can have adverse consequences, 
and that is why they require a prescription and medical management and supervision.  But -

Mrs. Musgrave  XE "Mrs. Musgrave"  .  If I may ask, how about experience or evidence in 
regard to use with young children?

Dr. Clawson  XE "Dr. Clawson"  .  To my knowledge, there have not been exhaustive 
longitudinal studies where, for instance, a young child would be placed on a stimulant then 
followed for 20 or 30 years, although there is data amassing to show that there are not long-term 
adverse effects.  I do not think that that is an absolute.  Any drug you give a child can have a long-
term adverse consequence, because we do not know all of the potentials, but the fact that we have 
been researching particularly stimulants for the last 30 years gives us a tremendous amount of 
medical research data to support that dramatic adverse consequences have not been reported or 
found with these medications, other than well-described specific cases where there are adverse 
events, just like any other medication.  You can get this with Benadryl, aspirin, or many of these 
things.  Any medication can have an adverse outcome.

Mrs. Musgrave  XE "Mrs. Musgrave"  .  Yes.

Dr. Carey  XE "Dr. Carey"  .  There are some side effects from Ritalin and such drugs, but as 
Dr. Clawson says, they are fortunately relatively minor in the studies that have been done so far.

	What I find most disturbing is the fact that these drugs are now being used in preschool 
children, and as somebody said, even as young as infants. 


Dr. Carey  XE "Dr. Carey"  .  At a time when the brain is still completing itself, laying down 
myelin and developing further, we have no idea what that is going to do to the development of the 
brain.

	And there is a study going on now, but I am very apprehensive about that, and I hope that it 
will not get to be a common process.  It is very hard to know in little kids what is abnormal 
behavior and what is just a feisty kid.

	So I have to say that we do not really know very much about little children.

Mrs. Musgrave  XE "Mrs. Musgrave"  .  Well, I have been concerned with the way, many 
times, that we think that all children should behave in the same way.

	I appreciate your remarks.  When you have 27 little people in a room and you think that 
they should all be compliant and acting in a certain way, I think we are making a big mistake.

	Representative Bryson, did you find out any evidence, when you were working on your 
legislation, in regard to documenting how students performed, for instance after they have been put 
on Ritalin or a similar drug, in elementary school?  Does anyone know what their academic 
performance is in 2 years, 4 years, or 6 years?  Do we know if there is still a problem for the 
teacher in the classroom?  Have we followed these students enough to see what their behavior is 2, 
4, or 6 years down the road?

Ms. Bryson  XE "Ms. Bryson"  .  I think we would all be curious to see that.  To my knowledge, 
there has not been any long-term study on this.  I would like to have seen it.  The only thing I had a 
chance to hear was actually from students.  As I was working on this legislation, they looked at 
quite a few substitutes, and there were a number of people, college students, who came forward and 
spoke with me and testified.  But there were personal situations where they said they were placed 
on Ritalin, but their reading skills did not improve or the skills in other areas did not improve.

	Yes, they were compliant, but as far as any studies of anything that was documented, I have 
not seen anything.

Mrs. Musgrave  XE "Mrs. Musgrave"  .  Well, I just wanted to end up talking about how 
vulnerable a mother feels, particularly when you have your first child in school.  You have your 
heart vested in this student, your first-born, when you go in to consult with the teacher.

	I could put myself in that place very easily because the older of our two sons, the eldest of 
our four children, was not learning to read in first grade; and he was not hyperactive, but he was 
having problems.  I still remember what I felt like when I went before that teacher.  I had a college 
education; I probably had a little more self-confidence than some, but I went in there wanting to 
find a solution for Chad's reading problem.  And I talked to that teacher.  I can now put myself in 
the place of mothers and fathers that go in when their child is not succeeding and realize how 
impressionable they are to the comment that a teacher would make.

	I have been a teacher.  I know the big responsibility that teachers have.

	And I would just like to commend Mr. Burns, because I think you have crafted a bill here 
that walks the fine line.  Yes, we want to be respectful of our educators.  We want them to be able 
to communicate with parents.  But we do not want them going over the line where they would push 
a parent into doing something that they thought was best for their child, whereas this teacher really 
does not have the capacity to be giving this kind of information.

	And so I want to stand up for those moms and dads that want the best for their children and 
are seeking advice from the teacher.  And I want that teacher who is very qualified in that 
educational arena to give educational advice, and I do not want drugs to be our first solution to very 
complex problems.

	And I do not want all of our kids to have to be the same because they are unique and 
precious individuals, and we need to look at them as individuals.

Chairman Castle  XE "Chairman Castle"  .  Well, thank you, Mrs. Musgrave, I would like to 
thank the witnesses for being here today.  I would like to thank all the members who participated.  
We tried to be generous of the time in this round of questions so that everybody could get their 
questions in.

	I was talking with Ms. Woolsey, and we both sort of admitted that this is a hearing that 
probably raises as many questions as it answers.  That is not bad.  That shows something about 
insight, about all of you.  I happen to be supportive of the legislation at hand, but obviously we do 
need to be careful when we legislate in these areas; and I think we have helped to shed some light 
on that.  We appreciate very much all of you being here.

	Let me turn to Ms. Woolsey and see if she has any closing comments.

Ms. Woolsey  XE "Ms. Woolsey"  .  I do.  Thank you.

	I think we all have to look at the legislation to make sure there is some gray in it, that it is 
not black and white, because every person and all of these little kids are, to some degree, between 
one side or the other on this, unless they are severely ill.  So I want to look at it from that regard.

	And I want to protect children from being drugged because they are being children.  And I 
will say that over and over.

	Thank you.

Chairman Castle  XE "Chairman Castle"  .  Mr. Burns, as the sponsor did you wish to make a 
brief closing comment?

Mr. Burns  XE "Mr. Burns"  .  I would like to thank the panel for your input, and I thank the 
committee for holding the hearing.  I think we are on the right track.  I believe we are making 
progress.  Our primary goals are the same on both sides of the aisle; and our goal and our objective 
is to protect the children of America and make sure they receive a quality education without the use 
of drugs, if at all possible.  And I support that.

	Thank you, Mr. Chairman.

Chairman Castle  XE "Chairman Castle"  .  Thanks again, everybody.  And with that, we 
stand adjourned.

	[Whereupon, at 3:45 p.m., the subcommittee was adjourned.]














APPENDIX A - WRITTEN OPENING STATEMENT OF CHAIRMAN 
MICHAEL N. CASTLE, SUBCOMMITTEE ON EDUCATION REFORM, 
COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C. 














APPENDIX B - WRITTEN OPENING STATEMENT OF RANKING 
MEMBER LYNN C. WOOLSEY, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENATIVES, WASHINGTON, D.C. 












APPENDIX C - WRITTEN STATEMENT OF HON. KATHERINE BRYSON, 
STATE REPRESENTATIVE, UTAH HOUSE OF REPRESENTATIVES, 
OREM, UTAH.












APPENDIX D - WRITTEN STATEMENT OF DR. WILLIAM CAREY, M.D., 
DIRECTOR OF BEHAVIORAL PEDIATRICS, CHILDREN'S HOSPITAL OF 
PHILADELPHIA, PHILADELPHIA, PENNSYLVANIA.












APPENDIX E - WRITTEN STATEMENT OF DR.  LANCE CLAWSON, 
PRIVATE PSYCHIATRIST, CABIN JOHN, MARYLAND.  











APPENDIX F  - WRITTEN STATEMENT OF REPRESENTATIVE MAX 
BURNS, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENATIVES, WASHINGTON, D.C.  












APPENDIX G - WRITTEN STATEMENT FROM AUDREY SPOLARICH, 
CHAIR, COALITION FOR CHILDREN'S HEALTH SUBMITTED FOR THE 
RECORD BY REPRESENTATIVE CHIS VANHOLLEN, SUBCOMMITTEE 
ON EDUCATION REFORM, COMMITTEE ON EDUCATION AND THE 
WORKFORCE, U.S. HOUSE OF REPRESENATIVES, WASHINGTON, D.C.












APPENDIX H - WRITTEN STATEMENT BY DR. KAREN EFFREM 
SUBMITTED FOR THE RECORD BY REPRESENTATIVE MARILYN 
MUSGRAVE, SUBCOMMITTEE ON EDUCATION REFORM, COMMITTEE 
ON EDUCATION AND THE WORKFORCE, U.S. HOUSE OF 
REPRESENATIVES, WASHINGTON, D.C.












APPENDIX I  - WRITTEN STATEMENTS FROM THE NATIONAL MENTAL 
HEALTH ASSOCIATION SUBMITTED FOR THE RECORD BY RANKING 
MEMBER LYNN C. WOOLSEY, SUBCOMMITTEE ON EDUCATION 
REFORM, COMMITTEE ON EDUCATION AND THE WORKFORCE, U.S. 
HOUSE OF REPRESENATIVES, WASHINGTON, D.C.












APPENDIX J  - WRITTEN CORRESPONDENCE FROM UTAH 
CONSTITUENTS SUBMITTED FOR THE RECORD BY HON. KATHERINE 
BRYSON, STATE REPRESENTATIVE, UTAH HOUSE OF 
REPRESENTATIVES, OREM, UTAH.



144

Table of Indexes



Chairman Castle, 2, 3, 4, 6, 8, 10, 11, 12, 13, 15, 19, 21, 23, 24, 27, 28, 30, 31
Dr. Carey, 6, 11, 13, 17, 18, 21, 22, 23, 25, 27, 28, 29
Dr. Clawson, 8, 12, 13, 14, 18, 19, 22, 23, 26, 28
Mr. Burns, 15, 16, 17, 18, 19, 28, 30
Mr. Case, 13, 14, 15
Mr. Van Hollen, 24, 25, 26, 27
Mr. Wilson, 23, 24
Mrs. Davis, 19, 20
Mrs. Musgrave, 28, 29
Ms. Bryson, 5, 10, 16, 19, 20, 22, 23, 24, 25, 26, 27, 29
Ms. Woolsey, 3, 21, 22, 30



 
cxxxviii

137


</pre></body></html>
